No.

SAMUEL KWUSHUE, Petitioner,
V.
UNITED STATES OF AMERICA, Respondent

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR
WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 7058 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 14, 2020

Samuel Kwushue
6001 Kahiti Trc,
Union City, GA 30291

